No. 19-1039
In the

Supreme Court of the United States
PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Third Circuit
BRIEF OF AMICI CURIAE MARCELLUS SHALE
COALITION AND PENNSYLVANIA INDEPENDENT
OIL & GAS ASSOCIATION IN SUPPORT OF
PETITIONER PENNEAST PIPELINE COMPANY, LLC

Kevin Jon Moody
General Counsel
Pennsylvania Independent
Oil & Gas A ssociation
212 Locust Street, Suite 300
Harrisburg, PA 17101
(717) 234-8525

Terry R. Bossert
Counsel of Record
General Counsel
Marcellus Shale Coalition
300 N. Second Street, Suite 1102
Harrisburg, PA 17101
(717) 603-0714
tbossert@marcelluscoalition.org
Counsel for Amici Curiae

302318

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORTIES . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The Third Circuit’s Decision Will Have a
Significant Negative Impact on the Industry’s
Ability to Supply Essential Natural Gas
across the Country  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The Third Circuit’s Decision Will Have a
Significant Negative Impact on the Natural
Gas Industry and the Commonwealth of
Pennsylvania  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The Third Circuit’s Decision Would Make
Construction of an Interstate Pipeline through
Pennsylvania Virtually Impossible  . . . . . . . . . . . . . . 8
A Plain Reading of the Statute Indicates
That Congress Could Not Have Intended
the Result Reached by the Third Circuit  . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
CASES
Columbia Gas Transmission, LLC v.
12 Acres of Land, More or Less,
No. 19-2040 (U.S. Court of Appeals, 4th Cir.) . . . . . . 3
Commissioners v. Brown,
380 U.S. 563 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
In re PennEast Pipeline Co. LLC,
938 F.3d 96 (3d Cir 2019) . . . . . . . . . . . . . . . . . . . . . 2, 3
Leaf v. Pennsylvania Co.,
112 A. 243 (PA 1920) . . . . . . . . . . . . . . . . . . . . . . . . . . 10
PPL Montana v. Montana,
565 U.S. 576 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Turkette,
452 U.S. 576 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
STATUTES AND OTHER AUTHORITIES
15 U.S.C. §§ 717-717z  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
15 U.S.C. § 717f(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
58 Pa. C.S. § 2302(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

iii
Cited Authorities
Page
Dr. Robert Bruno & Michael Cornfield, Study
of Construction Employment in Marcellus
Shale Related Oil and Gas Industry 20082014 University of Illinois, August 2014 . . . . . . . . . . . 6
Labor Review: The Marcellus Shale gas boom in
Pennsylvania: employment and wage trends  . . . . . 7
Monthly Labor Review, Shale gas production and
labor market trends in The U.S. Marcellus–
Utica region over the last decade . . . . . . . . . . . . . . . . 6
Natural Gas Royalties Increase in 2017, Independent
Fiscal Office, Research Brief, January 2020 . . . . . . . 6
PA Public Utility Commission, Act 13 Reports  . . . . . . 7
P ip el i ne & Ha z a r dou s M at er i a l s S a fet y
Administration, General Pipeline FAQs  . . . . . . . . . . 4
Shale Gas Development Beneath Publicly
Owned Streambeds . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
U.S. Energy Information Administration ,
U.S. Crude Oil and Natural Gas Proved
Reserves, Year-end 2019, Figure 3 . . . . . . . . . . . . . . . 5
U.S. Energy Information Administration ,
Natural Gas Explained, Where Our Natural
Gas Comes From  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
INTEREST OF AMICI CURIAE1
The Marcellus Shale Coalition (“MSC”) represents
natural gas producers, midstream and pipeline companies,
and local supply-chain companies that promote the safe
and responsible development of natural gas from the
Marcellus and Utica geological formations located in the
Commonwealth. In 2019, Pennsylvania accounted for
20% of the nation’s natural gas production and produced
more natural gas than any state except Texas, due
predominately to the advent of development from tight
shale formations like the Marcellus and Utica. MSC
members produce more than 90% of the unconventional
natural gas in the Commonwealth.
The Pennsylvania Independent Oil & Gas Association
(“PIOGA”) is the largest and oldest association representing
oil and natural gas interests in Pennsylvania. PIOGA’ s
nearly 500 members - many of which are family-owned
small businesses - include oil and natural gas producers,
marketers, oil and gas field service companies, engineering
companies, legal and accounting firms, and royalty owners.
PIOGA producer members develop Pennsylvania crude oil
and natural gas reserves under private and public lands.
The natural gas industry is often referred to as
having three sectors: “Upstream” - the exploration and
production (E&P) companies that drill the wells and
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amicus curiae, its members, or its counsel
made a monetary contribution to its preparation or submission.
All parties have consented to the filing of this brief.

2
produce the gas; “Midstream” - the companies that build
the pipelines that gather and transport the gas to market;
and, “Downstream” - the end users of the gas, such as
electric power generating plants or liquefied natural gas
facilities and manufacturers. The MSC and PIOGA both
have members in all three sectors. This brief addresses
the impacts on the upstream sector of the industry since
other entities, including Petitioner, address the direct
impact of the Third Circuit’s decision on the other sectors.
Companies that drill for and produce natural gas must rely
on pipelines to get that gas to market. The Third Circuit’s
decision threatens the ability of E&P companies to market
their product for the benefit of end users throughout the
country.
SUMMARY OF ARGUMENT
The decision of the United States Court of Appeals
for the Third Circuit at In re PennEast Pipeline Co.
LLC, 938 F.3d 96 (3d Cir 2019), if upheld, will have major
negative impacts on the natural gas industry. Those
negative impacts will occur not only to the portion of the
industry constructing interstate pipelines but will also
extend to the “upstream” companies that drill the wells
and produce the natural gas. Without adequate pipelines
to get their product to market, E&P companies will need
to curtail their drilling of new wells, causing a negative
impact on those companies and on the good paying, stable
jobs they provide. Additionally, royalty owners, including
the Commonwealth, will suffer reduced royalties. The
reduction in income for workers and landowners will have
a cascade effect on the larger economy in Pennsylvania.

3
The vast and varied interests claimed by states in
real estate, both possessory and non-possessory, make it
virtually impossible to route an interstate pipeline through
a state if that state can prevent a FERC certificate holder
from using eminent domain, if necessary, to acquire state
lands along the route approved by FERC.
A plain reading of the statute indicates that Congress
could not have intended the Natural Gas Act to work in
the manner decided by the Third Circuit.
ARGUMENT
The Third Circuit’s Decision Will Have a Significant
Negative Impact on the Industry’s Ability to Supply
Essential Natural Gas across the Country
The decision of the United States Court of Appeals
for the Third Circuit at In re PennEast Pipeline Co. LLC,
938 F.3d 96 (3d Cir 2019), will have major negative impacts
on the natural gas industry and the American economy.
The Third Circuit opinion itself provides the strongest
argument as to why this Honorable Court should reverse
the Third Circuit’s holding. The Court recognized “that
our holding may disrupt how the natural gas industry,
which has used the NGA to construct interstate pipelines
over State-owned land for the past eighty years, operates.”
In re PennEast at 113. There can be no doubt that the
decision below will greatly disrupt the construction of
critical infrastructure, as the court predicted. Indeed,
the State of Maryland has asserted the same Eleventh
Amendment grounds to block an interstate pipeline in a
case now pending in the United States Court of Appeals
for the Fourth Circuit. See Columbia Gas Transmission,

4
LLC v. 12 Acres of Land, More or Less, No. 19-2040 (U.S.
Court of Appeals, 4th Cir.).
Hindering the ability to construct interstate pipelines
will have far reaching consequences since most states do
not produce natural gas in significant quantities. According
to the U.S. Energy Information Administration, nearly
70% of the nation’s natural gas is produced in just five
geographically dispersed states - Texas, Pennsylvania,
Louisiana, Oklahoma, and Ohio. See U.S. Energy
Information Administration, Natural Gas Explained,
Where Our Natural Gas Comes From, https://www.eia.
gov/energyexplained/natural-gas/where-our-naturalgas-comes-from.php. (last visited February 25, 2021).
Therefore interstate pipelines are necessary to transport
gas from the producing states to the consumers in other
states. The recent devastating black swan, cold weather
event that began the second week of February and left
millions of people throughout the central and southern
United States, especially in Texas, without power and
water has shown the need for more, not fewer, interstate
pipelines. More power generation from wind and solar
energy requires more, not less, natural gas to ensure the
reliability and resiliency of the electric grids throughout
the country. The only safe and efficient way to get gas
to the areas of the country where it is needed is through
pipelines2 .
2 . The Petroleum and Hazardous Mater ials Safety
Administration has stated that pipelines are the safest means of
transportation for natural gas. PHMSA estimates that it would
require 750 tanker trucks per day moving out every two minutes
twenty-four hours a day seven days a week to replace a modest
pipeline. Moving this volume by railroad would require 225 tank
cars at 28,000 gallons each. Pipeline & Hazardous Materials

5
The Third Circuit’s Decision Will Have a Significant
Negative Impact on the Natural Gas Industry and the
Commonwealth of Pennsylvania
The natural gas industry in Pennsylvania produces
about 20% of the nation’s total natural gas production,
and interstate pipelines are essential to getting that
gas to market throughout the countr y. The U.S.
Energy Information Administration estimates that
over 100 trillion cubic feet of proven gas reserves
exist in Pennsylvania. See U. S. Energy Information
Administration, U.S. Crude Oil and Natural Gas Proved
Reserves, Year-end 2019, Figure 3, https://www.eia.gov/
naturalgas/crudeoilreserves (last visited February 25,
2021). Stranding these valuable natural resources due
to a lack of interstate pipelines would be tremendously
wasteful. Adequate pipeline capacity is key to connecting
more consumers and manufacturers to the benefits
made possible by the abundant natural gas supplies in
Pennsylvania. Without adequate means to transport
the gas, drilling will be reduced and production will be
curtailed. As a result jobs will be lost, mineral owners
will lose royalties, and even the Commonwealth’s revenues
will be negatively impacted in myriad ways.
Natural gas producers lease the natural gas rights from
the owner thereof and pay royalties for the gas produced
and sold. A study by the Pennsylvania Independent Fiscal
Office estimated that natural gas companies annually pay
hundreds of millions of dollars to owners and in some
Safety Administration, General Pipeline FAQs 6, https://www.
phmsa.dot.gov/faqs/general-pipeline-faqs (last visited February
25, 2021).

6
years, depending on the price of gas and production
volume, more than a billion dollars. See Natural Gas
Royalties Increase in 2017, Independent Fiscal Office,
Research Brief, January 2020 http://w w w.ifo.state.
pa.us/download.cfm?file=Resources/Documents/RB%20
2019%20Natural%20Gas%20Royalties.pdf (last visited
February 25, 2021). It naturally follows that a decline
in drilling and production will hurt the Pennsylvania
landowners who are receiving royalties. Included in the
ranks of lessors standing to lose royalties, should future
pipeline projects be checked, is the Commonwealth of
Pennsylvania through its Department of Conservation and
Natural Resources and Game Commission, both of which
receive royalties through oil and gas leases on state lands.
Numerous economic studies have demonstrated
that the natural gas industry supports a wide range
of related industries and trades. For example, a
study that examined construction jobs related to
the shale gas industry found that numerous trades,
including boilermakers, operating engineers, electricians,
pipefitters, ironworkers, plumbers, laborers, insulators,
painters, plasterers, masons, carpenters, sheet metal
workers, and teamsters, all benefited from a healthy gas
industry. See Dr. Robert Bruno & Michael Cornfield,
Study of Construction Employment in Marcellus Shale
Related Oil and Gas Industry 2008-2014 University of
Illinois, August 2014, https://ler.illinois.edu/wp-content/
uploads/2015/01/Marcellusjobsstudy_FINAL.pdf (last
visited March 1, 2021). A report released by the U.S.
Bureau of Labor Statistics found a significant growth in
jobs in the gas industry in Pennsylvania and throughout
the Marcellus region, with employment in Pennsylvania
growing 121 percent between 2007 and 2016. See Monthly

7
Labor Review, Shale gas production and labor market
trends in the U.S. Marcellus–Utica region over the
last decade, https://www.bls.gov/opub/mlr/2018/article/
shale-gas-production-and-labor-market-trends-in-theus-marcellus-utica-region-over-the-last-decade.htm
(last visited March 1, 2021). An earlier study showed a
significant increase in average annual income among gas
industry workers in Pennsylvania. See Monthly Labor
Review: The Marcellus Shale gas boom in Pennsylvania:
employment and wage trends, https://www.bls.gov/
opub/mlr/2014/article/the-marcellus-shale-gas-boom-inpennsylvania.htm (last visited March 1, 2021). All of these
jobs and the wages and other economic benefit that flow
from them are at risk if the industry is unable to maintain
or expand upon existing levels of production due to a lack
of interstate pipeline capacity.
Lastly, the Commonwealth of Pennsylvania may suffer
a decline in several sources of revenue if production is
curtailed. The Commonwealth collects a fee for every
shale gas well that is “spud” (i.e. drilled) in the state and
continues to collect a fee on that well for a period of 15
years. See 58 Pa.C.S. § 2302(b). Through 2020, according
to the Pennsylvania Public Utility Commission, the agency
that collects the fee, the Commonwealth has collected
and distributed over $1.8 billion to state agencies and to
local governments. See PA Public Utility Commission,
Act 13 Reports, https://www.act13-reporting.puc.pa.gov/
Modules/Reports/Reports.aspx. (last visited March
1, 2021) 3 A decline in the drilling of new wells due to
inadequate interstate pipeline capacity will necessarily
lead to less revenue to the Commonwealth.
3. The total distribution is derived from adding together all
“Disbursement Report” for the years 2011 through 2019.

8
Impact fees are not the only Commonwealth revenue
source that will be detrimentally affected if natural
gas production is curtailed due to the lack of interstate
pipeline capacity. The private royalty owners mentioned
above pay state income tax on the hundreds of millions
of dollars in royalties paid each year. Less production
means less royalties and less taxes to the state. As noted
above, a wide array of trades benefit from employment
in a robust natural gas industry. Those workers also
pay income taxes. In addition they purchase goods and
services on which they pay sales tax. In turn, local
merchants derive increased revenues on which they pay
income taxes. All those tax revenues will be in jeopardy
if upstream producers are forced to reduce production
and lay off workers.
The Third Circuit’s Decision Would Make Construction
of an Interstate Pipeline through Pennsylvania
Virtually Impossible
The potential impact of the Third Circuit’s decision
can be readily seen by looking at the public land holdings
in Pennsylvania, as an example. Although Pennsylvania
has not, at this point, asserted Eleventh Amendment
immunity from eminent domain proceedings brought
pursuant to the Natural Gas Act, 15 U.S.C.S. §§ 717-717z
(“NGA”), examining the Commonwealth’s interests in land
can be instructive, should such a position be motivated
by the Third Circuit’s holding. The Commonwealth
has possessory interests in approximately four million
acres.4 Thus, more than 13.5% of the land area of the
4. According to publicly ava i lable infor mation the
Commonwealth owns almost 300,000 acres in state parks, 2.2

9
state 5 is owned in fee by Commonwealth agencies,
creating a significant potential obstacle to any interstate
pipeline route crossing through Pennsylvania. Those
four million acres account for only the lands in which
the Commonwealth has a possessory interest and
omits lands on which it or a political subdivision of the
Commonwealth may hold an agricultural preservation
or conservation easement under various conservation
statutes. For example, the Pennsylvania Land Trust
Association reports that as of 2017 an additional 4 million
acres are enrolled in Agricultural Security Areas.6 The
lower Court’s opinion is not clear on the exact interest
that must be held by a state or state-related entities, but
similar non-possessory interests held by the State of New
Jersey were assumed to be adequate to invoke Eleventh
Amendment immunity.
In fact, the Commonwealth takes a view of its
ownership of the land under certain stream beds that
would greatly increase the obstacles to construction of a
pipeline were Pennsylvania to follow the Third Circuit’s
million acres of state forest lands in 48 of the 67 counties, and 1.5
million acres of state game lands, accounting for approximately
four million acres or 6250 square mileshttps://www.dcnr.pa.gov/
StateParks/ Pages/default.aspx; https://w w w.dcnr.pa.gov/
StateForests/ Pages/default.aspx; https://w w w.pgc.pa.gov/
hunttrap/stategamelands/Pages/default.aspx, respectively. (last
visited March 1, 2021).
5. 6250 square miles divided by 46,058 square miles - https://
www.netstate.com/states/geography/pa_geography.htm (last
visited March 1, 2021).
6. https://conservationtools.org/guides/49 (last visited March
1, 2021).

10
lead. Generally, states, in their capacity as sovereigns,
hold title to the beds under navigable waters, whether
navigable in law or in fact. See, PPL Montana v.
Montana, 565 U.S. 576, 590 (2012); Leaf v. Pennsylvania
Co., 112 A. 243, 244 (PA 1920). However, Pennsylvania
has recently taken a more expansive view of its stream
bed ownership, claiming ownership of beds beneath every
stream that the Pennsylvania General Assembly has
ever designated as a public highway, regardless of their
navigability in fact. See, Shale Gas Development Beneath
Publicly Owned Streambeds, https://www.dcnr.pa.gov/
Business/StreambedGasLeasing/Pages/default.aspx. (last
visited February 25, 2021). While many individuals and
organizations, including the MSC and PIOGA, disagree
with the Commonwealth’s position, it is instructive to see
the significant swaths of Pennsylvania that could be barred
from pipeline infrastructure development if Pennsylvania
were to adopt the position taken by New Jersey and
Maryland. The Pennsylvania Department of Conservation
and Natural Resources has produced a map illustrating
the stream beds to which it claims ownership. One need
only look at that map, included in the Appendix (App.
1a),7 to see the impossibility of constructing an interstate
pipeline through Pennsylvania should the Third Circuit’s
decision be upheld. Additionally, the Delaware River is
clearly a navigable river and forms the border between
Pennsylvania and New Jersey, with approximately half of
the river’s width in each state. Accepting New Jersey’s
position would allow it to claim an ownership interest in
its half of the riverbed and create an impenetrable wall
blocking any pipeline or other infrastructure coming from
the west.
7.
The map can also be viewed at: http://www.docs.dcnr.
pa.gov/cs/groups/public/documents/document/dcnr_009716.pdf.

11
A Plain Reading of the Statute Indicates That Congress
Could Not Have Intended the Result Reached by the
Third Circuit
Although the MSC and PIOGA will not repeat the
arguments of the Petitioner, one point seems apparent.
A plain reading of the statute in question would suggest
that the Third Circuit strained to avoid the obvious. 15
U.S.C. § 717f(h) provides in relevant part:
When any holder of a certificate of public
convenience and necessity cannot acquire by
contract, or is unable to agree with the owner
of property to the compensation to be paid
for, the necessary right-of-way to construct,
operate, and maintain a pipe line or pipe lines
for the transportation of natural gas, and the
necessary land or other property, in addition
to right-of-way, for the location of compressor
stations, pressure apparatus, or other stations
or equipment necessary to the proper operation
of such pipe line or pipe lines, it may acquire
the same by the exercise of the right of eminent
domain in the district court of the United States
for the district in which such property may be
located, or in the State courts.
It should be presumed that Congress did not intent
an absurd result when enacting a statute. Moreover, the
courts should avoid interpretations that produce absurd
results or thwart the intent of Congress. See United States
v. Turkette, 452 U.S. 576, 580 (1981); Commissioners v.
Brown, 380 U.S. 563, 571 (1965). As the examples noted
above illustrate, given the extensive possessory and

12
non-possessory interests in real estate claimed by the
states, Congress must have intended to delegate the
federal government’s power to condemn state property.
Otherwise, it would have created a very odd if not absurd
situation. Congress would have established a complex
process under the NGA for the review and approval of the
routing of interstate pipelines only to allow states, after
participating in the FERC process and suggesting route
changes, as New Jersey did here, to undo that process by
claiming that their large land holdings and even larger
non-possessory interests could not be acquired by eminent
domain. To construe the NGA in such a manner would
be to produce an absurd result and thwart the intent of
Congress.
CONCLUSION
For the reasons set forth above the Marcellus Shale
Coalition and the Pennsylvania Independent Oil and Gas
Association support the Petitioner’s request to reverse
the Third Circuit’s decision.
Respectfully submitted,
Kevin Jon Moody
General Counsel
Pennsylvania Independent
Oil & Gas A ssociation
212 Locust Street, Suite 300
Harrisburg, PA 17101
(717) 234-8525

Terry R. Bossert
Counsel of Record
General Counsel
Marcellus Shale Coalition
300 N. Second Street, Suite 1102
Harrisburg, PA 17101
(717) 603-0714
tbossert@marcelluscoalition.org
Counsel for Amici Curiae

APPENDIX

1a

Appendix A

0

Sources:
Publicly-Owned Streambeds - DEP's Lists of Streams Subject to the Submerged Lands License Program, 09/2003
Streams - USGS National Hydrography Dataset, 06/2005

Note:
The waterways identified herein as having publicly-owned streambeds have been compiled by the Commonwealth
over time from various sources. Identification is based upon information believed to be reliable and persuasive
evidence of such ownership. The identification of a waterway as having a publicly-owned streambeds herein is not
intended to be a final determination that the waterway is navigable under state or federal law. Moreover,
other waterways not identified herein may be navigable under state or federal law, in which case their streambeds
would also be publicly-owned. The Commonwealth reserves the right to add or remove waterways identified
as having publicly-owned streambeds as additional information becomes available.

Draft Map: 02/28/2012

Publicly-Owned Streambeds

Publicly-Owned Streambeds (Entire Stream Reach)

Miles

50

µ

Marcellus Formation (Subsurface or Outcrop)

25

County Boundary

12.5

